No. 20-1149

 

 

IN THE

Supreme Court of the United States

BRISTOL-MYERS SQUIBB CO., ET AL., PETITIONERS
Vv.

CLARE E. CONNORS, ATTORNEY GENERAL OF HAWAII

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF THE PHARMACEUTICAL RESEARCH AND
MANUFACTURERS OF AMERICA AND THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF AMERICA AS
AMICI CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,169 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 24, 2021.

 

Wilson-Epes Printing Co., Inc.
